No.

IN THE
SUPREME COURT OF THE UNITED STATES

JEFFREY KELLER - PETITIONER
PETITION FOR WRIT OF CERTIORARI

INDEX TO APPENDICES
APPENDIX A - People v. Keller, 2020 Ill. App. (2d) 170750-U
September 30, 2020
APPENDIX B - Leave to File Supplemental pro-se Brief,
Denied, #2-17-0750
APPENDIX C - People v. Keller, Petition for Leave to Appeal Illinois Supreme Court
Denied, #126094
APPENDIX D - People v. Keller, Leave to File emergency Motion to Recall Mandate
Denied in error, #126094
APPENDIX E - Confirmation by Illinois Supreme Court, Filing Emergency Motion to Recall
Mandate, #126094
APPENDIX F - Supreme Court of Illinois Motion to Recall Mandate
Order denying prose Emergency Motion #126094
APPENDIX G - Supreme Court of Illinois Order denying prose Motion for Reconsideration
Of the denial of Emergency Motion to Recall Mandate, #126094
APPENDIX H - Prose Emergency Motion to Recall Mandate and its Exhibits including
Prose supplemental Appellate Brief, #126094
APPENDIX I - Prose Motion to Reconsider Denial of Emergency Motion with
Supplemental support, #126094

40

2020 IL App (2d) 170750-U
No. 2-17-0750
Order filed April 8, 2020
NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as
precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).

IN THE
APPELLATE COURT OF ILLINOIS
SECOND DISTRICT
PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,
v.
JEFFREY KELLER,
Defendant-Appellant.

)
)
)
)
)
)
)
) '
)

Appeal from the Circuit Court
of Du Page County.
No. 15-CF-88
Honorable
George J. Bakalis,
Judge, Presiding.

JUSTICE HUDSON delivered the judgment of the court.
Justice Bridges concurred in the judgment.
Presiding Justice Birkett specially concurred.
ORDER

11

112

Held'. Alleged failure of police to inform defendant of reason for his arrest was not a basis
to suppress evidence; trial court’s finding that defendant did not invoke right to
counsel until end of interrogation was not contrary to the manifest weight of the
evidence; police adequately related Miranda warnings to defendant and
defendant’s waiver of those rights was valid; defendant failed to
contemporaneously object to lack of adequate notice of overhear recordings and
claims of prejudice purportedly flowing therefrom were speculative; alleged
technical violations of statutory provisions governing overhears did not warrant
suppression and, even assuming arguendo error occurred, it was harmless, as the
evidence against defendant was overwhelming.
I. INTRODUCTION

2020 IL App (2d) 170750-U

H3

Defendant, Jeffrey Keller, was convicted of first-degree murder following a jury trial in the

circuit court of Du Page County. He was sentenced to 70 years’ imprisonment. He now appeals,
raising two issues. First, he argues that a statement he made to police was taken in violation of
the strictures of Miranda v. Arizona, 384 U.S. 436 (1966), and on state law grounds. Second, he
contends that the trial court erred in failing to suppress an eavesdrop recording due to various
statutoiy violations. For the reasons that follow, we affirm.

114
115

II. BACKGROUND
Defendant was convicted of first-degree murder in relation to the shooting death of

Nathaniel Fox, which occurred on December 22,2013. Fox was shot in his garage as he attempted
to exit his car. As the arguments raised by defendant concern only pretrial proceedings, we will
limit our discussion of the facts to those pertinent to those issues. We turn first to the hearing on
defendant’s motion to suppress statements based on the alleged failure of the police to comply
with Miranda and state law.
K6

The State first called Detective Erin Gibler. On January 14, 2015, Gibler was working

with the Du Page County Major Crimes Task Force. She was working with a group of detectives.
They went to 1801 South Meyers Road in Oak Brook Terrace (where defendant’s business, 8tol8
Media, was located).

They were trying to locate defendant and had been to that location

periodically throughout the day. She was working with Detective Arsenault. They were in plain
clothes and an unmarked car. At about 6 p.m., Arsenault observed an individual matching
defendant’s description in the window of the building. Gibler went into the building to confirm
that defendant’s business was located there. Gibler then took the elevator to a secure section of
the underground garage. She observed defendant’s car, a 2007 black Audi A6. She left to tell

-2-

2020 IL App (2d) 170750-U

Arsenault, blocking a door open with a rock so she could get back in. They contacted the
Bloomingdale Police Department.

H7

Within an hour, 8 to 10 additional officers arrived. Gibler added, “They were in plain

clothes, but identified as police officers through their ballistic vests.” Gibler and Arsenault put on
body armor. The officers met in a public portion of the underground garage. They decided to stop
defendant before he exited the garage, because they “did not want any type of vehicle pursuit.”
They were aware that defendant was suspected of having a gun and having used it to commit a
murder. While they were still preparing to execute their plan, they observed defendant entering
the garage. Defendant got into his car, backed up, and started driving toward the exit. Defendant
observed the officers and stopped. Gibler approached defendant with her gun drawn. Other
officers followed. Initially, she and three others approached defendant. Gibler identified herself
and asked defendant to place his hands on the steering wheel. Defendant complied.
Gibler told defendant she was assisting the Bloomingdale Police Department on an
investigation. She asked him to step out of the car. She explained that Bloomingdale detectives
were on the way and wanted to speak with him. She asked defendant if he had any weapons; he
replied that he did not. Defendant then consented to a pat-down search. Defendant was not
handcuffed.

The Bloomingdale detectives arrived in about one minute.

Gibler introduced

defendant to them. She then walked away. She stated that defendant was cooperative. Defendant
never asked for a lawyer or invoked his right to remain silent. No one questioned defendant and
no one advised him that he was under arrest.

119

On cross-examination, Gibler acknowledged that she did not prepare a written report

documenting her involvement in the arrest of defendant. She was involved with the investigation
from the time Fox was killed. A few days before defendant’s arrest, they received a “substantial

-3-

2020 IL App (2d) 170750-U

tip” from Steven Schweigert. Gibier was aware that Schweigert had had a telephone conversation
with defendant and an overhear was conducted by police. She knew what defendant looked like,
where he lived and worked, and what kind of car he drove. Her assignment was to locate defendant
and his vehicle.
K 10

After she entered the building where defendant’s business was located, she noted that there

were video cameras in the building, including in the garage. There was a camera covering the area
where defendant was arrested. She did not ask building staff about the cameras prior to the time
they confronted defendant.

Gibier believed that defendant might be dangerous, as he was

suspected of murder and might have a gun. Gibier agreed that defendant was not free to leave the
garage. Eventually, she observed defendant walking toward his vehicle. Defendant got into his
car and began to leave; however, he stopped 20 to 30 feet from the exit door. Gibier entered the
garage, followed by a number of other officers, through a service door with her gun drawn. Some
of the officers had rifles. She identified herself and asked to see defendant’s hands. She was
“loud” but “[n]ot yelling.” She asked defendant to step out of the vehicle and defendant complied.
Once defendant exited the car, she holstered her weapon. Defendant stated he did not have any
weapons and consented to a pat-down search. Defendant was not free to leave. Some officers still
had guns in their hands, but none were pointed at defendant. Bloomingdale police officers, in
plain clothes, arrived. She introduced them to defendant and walked away. The Bloomingdale
officers told defendant they wanted to discuss an investigation with him, but they did not state
what type of investigation while Gibier was present.
*\\ 11

The State next called Detective David Spradling, of the Bloomingdale Police Department.

On January 14, 2015, he was on duty investigating the murder of Nathaniel Fox. He was notified
by the Major Crimes Task Force that defendant had been located. He drove to the location that

-4-

2020 ILApp (2d) 170750-U

they indicated in an unmarked 2008 Crown Victoria. The vehicle had no markings and no cage.
He was accompanied by Detective Hill. They parked outside the building where defendant was
believed to be and waited. They were notified that the task force officers had made contact with
defendant, and they went to that location. They parked in a nonsecure section of the parking garage
and walked to the secure area where defendant was. They met Gibler, and she introduced them to
defendant.
K 12

Hill told defendant that they were working on a case and defendant’s name had come up

during the course of the investigation.

They asked defendant to accompany them to the

Bloomingdale Police Department, and defendant agreed. They walked back to their car with
defendant and left. Defendant was not handcuffed at any time during the trip. Defendant and Hill
rode in the back seat, and Spradling drove. Spradling thought that Hill might have patted defendant
down before getting into the car. The trip to the police department took 20 minutes. During the
trip. Hill and defendant discussed defendant’s business. They did not speak about the murder.
They escorted defendant into the building via the juvenile entrance door, which is “secure to get
in but not secure to get out” and took defendant to an interview room. Spradling described it as a
“cinder block room with a table” and three chairs. From the time they arrived, an audio and video
recording was made. They did not advise defendant of his Miranda rights prior to arriving at the
station. Defendant did not ask for a lawyer or indicate that he did not want to speak to the police
during the trip. Spradling did not recall defendant stating that he did not want to go to the police
station and suggesting that they speak in his office.
f 13

Spradling testified that when he went to meet with defendant, he (Spradling) was wearing

a long jacket, shirt, tie, and dress pants. He was not wearing anything that indicated he was a

-5-

2020 IL App (2d) 170750-U

police officer. Hill was dressed the same way. Spradling explained. “It was our intent to be
nonthreatening at that point to try to convince [defendant] to come back with us voluntarily.”
K 14

On cross-examination, Spradling stated that the murder of Fox occurred on December 22,

2014. He was assigned as an investigator that evening. No suspect had been identified prior to
Schweigert contacting the police. Spradling related that Schweigert had implicated defendant in
Fox’s murder. They obtained an order for an overhear, and Spradling listened to that conversation.
K 15

Prior to making contact with defendant on January 14, 2015, Spradling, Hill, and State’s

Attorney Diamond discussed how they intended to interact with defendant. They decided not to
wear uniforms so as to be as nonthreatening as possible. They hoped that defendant would agree
to come with them, talk to them, and make incriminating statements.

When he arrived at

defendant’s location, he observed 8 to 10 officers in tactical gear. However, Giblerand defendant
were standing near the rear of defendant’s car, and Gibler was the only officer within five feet of
defendant. When asked whether “part of the plan” was to not tell defendant he was under arrest,
Spradling replied, “Yeah, I believe so.” He did not recall whether it was “part of the plan” to not
“tell him what the nature of the crime was” or that defendant was being investigated regarding the
Fox murder.

Spradling did not recall Hill saying that they could speak with defendant at

defendant’s office or defendant saying he’d prefer to speak with the police at his office. He did
not remember defendant requesting to speak with an attorney. Defendant was not free lo leave.
During the ride to Bloomingdale, Hill and defendant mostly spoke about defendant’s business,
though they may have briefly talked about baseball. At some point, defendant expressed that he
did not know where Bloomingdale was (Spradling clarified that this may have been after they
arrived). He did not recall Hill saying to defendant, “Oh come on. You know where Bloomingdale
is at. You’ve been to Bloomingdale before.”

-6-

2020 1L App (2d) 170750-U

11 16

Once they arrived, Spradling escorted defendant into the police station. Defendant was in

custody at this time.

They brought defendant to an eight-by-eight interview room.

The

interrogation lasted two to two-and-a-half hours, during which time the door was “generally shut.”
If 17

Defendant’s first witness was John Giocomelli. He testified that he is the chief engineer

of the building that defendant’s business was located in. Cameras cover the garage. Anyone can
access the secure portion of the garage via the elevator. The service door is locked from the outside
only. There was a video surveillance system in use in the building in January 2015. It was
working, but sometimes would malfunction. He typically leaves at 4 p.m., and he did not know
the police were coming to the building to apprehend defendant on January 14, 2015. He left that
day at his usual time and had not noticed any problems with the video system. He returned at
about 7:30 p.m. at the request of the police. Hemet with two officers; he did not recall their names,
but one was female and one was male. When he entered his office, he noted the video screen was
blank. He surmised that they stopped working after 4 p.m., as they were working when he left.
The officers asked for video recordings from December 2014; however, the system only stores
two weeks of recordings, so it was not available.

He did not recall the officers asking for

recordings from the day of defendant’s arrest. On cross-examination, Giocomelli testified that
they were having a problem with the video system three or four times per month and he has to
reset it. They replaced a DVR player in November 2015, and the problem resolved.
I) 18

Defendant next called Philip Lekousis, who works in the same building where defendant’s

business was located. He was familiar with defendant. On January 14, 2015, he was leaving work.
His car was parked in the secure section of the garage. As he walked down a hallway leading to
the garage, he encountered three or four individuals dressed in tactical gear. He walked by them
and went to his car. They were armed. As he was walking to his car, he saw “at least half a dozen

-7-

2020 IL App (2d) 170750-U

law enforcement individuals that came rushing through both doors” (through a pedestrian door and
a garage door). They “enter[ed] the garage really aggressively.” Defendant’s car was near the exit
door. The main door had opened as defendant approached it. Lekousis observed that the exit was
blocked by a number of vehicles. There were no emergency lights on the vehicles. There was a
lot of yelling initially. They “took [defendant] out of the car and put him up against the wall behind
his car in the garage.” There were at least four officers near defendant at this time. Lekousis was
about 20 feet away when defendant was put against the wall. The officers had “some sort of rifles.”
As tiie officers brought defendant to a vehicle to leave, one officer walked on each side of
defendant, holding an arm, and one walked behind defendant. On cross-examination, Lekousis
testified that these events were “pretty shocking” to him. The police had defendant against the
wall, with defendant’s hands “up against the wall,” and they were patting him down. Lekousis
was certain defendant was against a wall and not a car.
If 19

Defendant next called Jason Nobles, who also works in the building where defendant was

arrested. He knew defendant from working in the building. On January 14, 2015, Nobles was
leaving work. He took the elevator to the parking garage. He had parked in the public, nonsecure
section of the garage. As he was walking through the secure section, he saw “[a] lot of cops.” The
garage doors were open. Defendant was standing near the garage door. Nobles walked out through
the door. There were 8 to 10 police officers present, and they were in plain clothes. The officers
were armed. Nobles heard them speaking in loud voices. He thought defendant was “against the
wall, but [he was] not a hundred percent certain on that.” On cross-examination, Nobles clarified
that he had seen defendant in the building, but did not really know him.
H 20

Defendant next called Detective Jeff Hill. He was part of the Major Crimes Task Force

and investigated the murder of Fox. Several days before defendant’s arrest, they received a lead

-8-

2020 IL App (2d) 170750-U

from Steven Schweigert. Hill monitored a conversation between defendant and Schweigert.
Search warrants were obtained for defendant’s house, car, and business. They received a call that
defendant had been located, and he and Detective Spradling drove to a parking lot just south of the
building defendant worked in. They were dressed in plain clothes and armed. Subsequently, they
drove to and parked in the public section of the parking garage in defendant’s building. They
walked to where defendant was. Hill testified that he did not have his weapon drawn. There were
several other officers present. Defendant was not free to leave. Hill “walked up to [defendant]
and talked to him very nicely that I wanted him to come voluntarily.” Hill told defendant that “I
[had] an investigation that I needed him to help me out with.” Hill did not tell defendant which
investigation he was talking about. Defendant agreed to accompany Hill. Hill did not recall
defendant saying he’d prefer to speak to the police in his office. Defendant never asked for an
attorney.
K 21

They walked defendant to their car. Hill and defendant sat in the back seat. It took 15 to

20 minutes to get to the Bloomingdale police station. On the way to there, defendant and Hill
talked about defendant’s business and “a little bit about him playing baseball” as a kid. Neither
Hill nor Spradling asked defendant if he knew where Bloomingdale was while they were in the
car. Defendant did not ask for an attorney during the trip, and he did not ask to make a telephone
call.
T[ 22

When they arrived at the police station, they took defendant directly to an interview room.

Hill identified a document that contained the Miranda warning given to defendant. In the waiver
section, it does not state that the purpose of the document is to indicate that the rights were read to
defendant. Nevertheless, Hill stated that he told defendant that by signing the document, it means
that they read it to defendant and defendant understood his rights. Hill also told defendant that

-9-

2020 IL App (2d) 170750-U

this was “a normal process” and “standard.” Hill never specifically asked if defendant was waiving
his rights. Spradling told defendant that he could stop talking at any time. At one point, defendant
stated that he did not want to talk any further. Mill asked what he meant by that. Hill explained
that it was unclear whether defendant was invoking his right to remain silent or simply wanted to
take a break. Subsequently, defendant asked to have an attorney present. Hill explained that they
could no longer talk. Hill then sat with defendant in silence for a while.
23

Defendant next testified. He stated that he was 53 years old. He has a Bachelor of Science

in business from Indiana University. He owned a business called 8tol8 Media. On January 14,
2015, he left his office at 7 or 7:30 p.m. He went to the secure section of the parking garage and
got into his car, a black Audi A6. As he approached the garage door, he noted a flashing light on
top of a car outside, and several police officers with weapons drawn and aimed at defendant rushed
in. He estimated that there were between 10 and 15 officers. He saw both handguns and long
guns. The officers were wearing bullet-proof vests. Defendant stopped immediately. A woman
approached, yelling that defendant should park the car and put his hands on the steering wheel.
Defendant described her tone as “forceful.” He did not feel free to leave. The female officer
identified herself. She told defendant to slowly get out of the car, and he complied. She then
stated that she needed to frisk defendant. She asked defendant to stand against a wall. Defendant
placed his hands against the wall, and she patted him down. Defendant noted a number of police
vehicles blocking the exit to the garage.
1) 24

Detective Hill arrived and spoke with defendant. Hill stated he needed to speak with

defendant about an investigation. Defendant did not feel free to leave. Hill stated they could speak
at the police station or at defendant’s office. Defendant testified that he stated he “would prefer to
do it here in the office or at the station in the morning with an attorney.” Spradling approached.

-10-

2020IL App (2d) 170750-U

Hill told Spradling that defendant wanted to do the interview in his office, and Spradling said that
that would not work. They said they needed go to the Bloomingdale police station. Defendant
asked if he could follow the officers to the station, and they said no. They told defendant that he
had to come with them. Defendant asked if he could park his car, and they said no to that as well.
They then said, “So we’re going to go down to the station. Is that okay.” Defendant said,
“[0]kay.” Defendant did not believe he could refuse to go to the station. As they walked to the
car, one officer was “just in front of [his] left shoulder” and the other was “just behind [his] right
shoulder.” They were very close, but defendant was not handcuffed.
If 25

As they got into the car, defendant asked for his cell phone so he could call an attorney.

Hill said that was not possible and that they would talk about it at the station. Defendant did not
recall Hill using the word “voluntarily” when he asked defendant to go to the station. On the way
to the station, Hill asked defendant about his business. Defendant asked where they were going,
and Hill said Bloomingdale. Defendant asked where Bloomingdale was. Hill stated: “Well, you
know where Bloomingdale is. You’ve been to Bloomingdale. Why were you in Bloomingdale?”
Defendant explained that he was confusing Bloomingdale with Bolingbrook.
1f 26

They arrived at the station, and the officers escorted defendant in. Defendant again asked

for his phone, as he wanted to call his attorney. Hill said the phone was not an option. The police
did not offer defendant an opportunity to use one of their phones. Defendant acknowledged that
“[a]t the scene,” the police told him they wanted him to come to the station as “they were
investigating a homicide.” They did not, however, tell him “the nature of the homicide or any
other details at that point.” The detectives brought defendant to an interview room. They told
defendant where to sit. During the initial discussions with Hill, defendant had questions about the
Miranda warnings. Defendant was not sure if by signing the form, he was simply acknowledging

-11-

2020 IL App (2d) 170750-U

that the warnings had been discussed or if he was waiving those rights. Hill cut defendant off
repeatedly. Defendant stated that ‘:it felt deceptive.” Hill told defendant “the only way you’re
going to find out about why you’re you’re here [j/c] is if you sign that document.” Defendant
eventually signed the Miranda form. On multiple occasions, defendant attempted to express
something about his rights, and Hill would interrupt and redirect defendant away from the subject.
Defendant testified that he had intended to assert his rights at multiple points. At one point,
defendant stated, ‘Tin not going to answer.” The detectives did not stop questioning him.
H 27

On cross-examination, defendant acknowledged that he had seen the recording of the

interview. Defendant testified that he graduated from business school at Indiana and had worked
in the business world for over 20 years. He agreed that he is “not stupid.” He reads a lot and tries
to get his children to read. Defendant acknowledged that he understood what the words “right to
remain silent” generally mean. He added that under the circumstances of the interrogation, it was
different. Defendant agreed that when Hill first spoke with him, Hill stated that it was in reference
to a homicide investigation, but he later clarified that this did not happen until they were at the
police station.
1) 28

The State called Detective Hill in rebuttal. He testified that, after the interview concluded,

they did a pat-down search of defendant. Hill found a cell phone in one of defendant’s pants
pockets. On cross-examination, Hill stated he did not recall defendant asking to use a cell phone.
H 29

The State also called Detective Spradiing. On January 13, 2015, he met with Schweigert.

He identified the recording of the conversations between defendant and Schweigert that were the
subject of the police overhear.
H 30

The State’s final witness in rebuttal was Thomas Krefft. ICrefft is a Hinsdale police officer.

On April 11, 2010, he responded to a domestic dispute. As a result, defendant was placed under

-12-

2020 IL App (2d) 170750-U

arrest for the offense of domestic battery. Krefft advised defendant he was under arrest, placed
him in handcuffs, and performed a cursory search of defendant’s person.

Defendant was

transported to the Hinsdale police station and placed in the booking area. At the beginning of the
booking process, Krefft read defendant his Miranda rights from a form. Defendant signed the
Miranda form under the heading, “Acknowledgement and Waiver of Rights.” Krefft then asked
defendant if he was willing to speak with him. Defendant declined, stating “[t]hat he didn’t want
to say anything.” Krefft served defendant with a two-count complaint charging him with domestic
battery, and he fingerprinted defendant as well.
1(31

The trial court denied defendant’s motion to suppress, explaining its reasoning in a

memorandum opinion. The trial court first found that defendant was arrested when confronted by
the police in the parking garage because a reasonable person would not have felt free io leave
under the circumstances. The trial court cited the number of officers involved, the display of
weapons, that there was some physical contact between the officers and defendant, and the tone of
the officer’s verbal directions to defendant.
32

The trial court next considered the adequacy of the Miranda warnings given to defendant.

It found that “Officer Hill’s recitation of the warnings was done in a manner which downplayed
the importance of the warnings.” It continued, “His comments, such as it just means that I read
them to you, its normal procedure which he does with a lot of people, are all comments in the
courts [sic] mind[,] made in an attempt to minimize the import of the warnings.” However, it
concluded, “That being said, however, the question is whether the rights were given which the
court finds they were.”
U 33

The trial court then turned to the question of whether defendant voluntarily waived his

rights. It noted that Spradling told defendant he could stop speaking at any time and that a waiver

-13-

2020 IL App (2d) 170750-U

means he is willing to talk to the police. Further, defendant did sign the waiver form. It stated.
“[T]he admonitions given, although not given in a manner the court would prefer to see done, did
convey to the defendant what his rights were.” The trial court further noted defendant’s level of
education and the fact that he had previously been arrested, had his Miranda rights read to him,
and had invoked his right to silence. Moreover, that defendant ultimately invoked his right to
silence during the interrogation by Hill and Spradling showed that he understood this right. The
trial court also found defendant’s claim that he had asked to call an attorney prior to the
interrogation incredible, particularly in light of the fact that he had a cell phone in his pocket.
% 34

Finally, the trial court held that the police did not violate section 103-1 (b) of the Code of

Criminal Procedure of 1963 (Code) (725 ILCS 5/103-l(b) (West 2014)), which provides: “After
an arrest without a warrant the person making the arrest shall inform the person arrested of the
nature of the offense on which the arrest is based.” It found it sufficient that the police told
defendant that they wished to speak with him regarding a homicide investigation.
If 35

Defendant also appeals the trial court’s denial of his motion to suppress the eavesdrop

recordings. Facts pertinent to that issue are brief and will be discussed in that portion of this
disposition.
H 36
1(37

III. ANALYSIS
Defendant first contends that the trial court erred in denying his motion to suppress

statements. Defendant argues that suppression was warranted due to: (1) the police’s failure to
inform him of the reason he was being arrested, (2) his requests for an attorney being ignored, (3)
the police’s failure to properly Mirandize him, and (4) his waiver of those rights not being made
knowingly. Defendant also asserts that the trial court should have granted his motion to suppress

-14-

2020 IL App (2d) 170750-U

the recordings made during overhears of his telephone conversations with Schweigert because of
the police’s failure to comply with various statutory provisions.

1138
*( 39

A. MOTION TO SUPPRESS STATEMENTS
We review a trial court’s decision on a motion to suppress evidence using a mixed standard.

People v. Lee, 214 Ill. 2d 476, 483 (2005). Findings of historical fact are reviewed using the
manifest-weight standard. Id. A decision is contrary to the manifest weight of the evidence only
if an opposite conclusion is clearly apparent. In re Faith B., 359 Ill. App. 3d 571, 573 (2005).
However, “we review de novo the ultimate question of whether the evidence should be
suppressed.” Lee, 214 Ill. 2d at 484. Initially, we note that the trial court found defendant was
arrested at the time he encountered police in the parking garage. The State does not dispute this
finding, and, in any event, we could not say it was against the manifest weight of the evidence.
Defendant asserts several bases as to why his statements should have been suppressed.
1. Failure To Inform Defendant Of The Reason For His Arrest

1140
T| 41

Defendant first contends that the police violated his statutory right to be informed of the

reason he was being arrested. Defendant points to section 103-l(b) of the Code (725 ILCS 5/1031(b) (West 2014)), which provides: “After an arrest without a warrant the person making (he arrest
shall inform the person arrested of the nature of the offense on which the arrest is based.5'
Defendant contends that a violation of this section warrants suppression of evidence flowing from
the arrest.
*[ 42

Initially, we note that, as defendant acknowledges, when he was first confronted in the

parking garage, the police told him they wanted to speak to him because “they were investigating
a homicide.” The trial court found that this was sufficient to satisfy the statute. We cannot say
this finding is contrary to the manifest weight of the evidence.

-15-

2020 IL App(2d) 170750-U

43

The State argues that suppression is not the remedy for a violation of this statute. In

support, it cites People v. McGuire, 35 111. 2d 219 (1966). There, the supreme court held that
suppression was not the remedy for a violation of section 103-7 of the Code (Ill. Rev. Stat. 1963.
chap. 38, pars. 103-7 (now codified as amended at 725 ILCS 5/103-7 (West 2014))). Section 1037 requires the posting of notices of certain rights provided for in article 103, which is the same
article in which the section at issue here appears. The supreme court noted the legislature has
specified the remedy for a violation of the provisions of article 103 in section 103-8: “Any peace
officer who intentionally prevents the exercise by an accused of any right conferred by this Article
or who intentionally fails to perform any act required of him by this Article shall be guilty of
official misconduct and may be punished in accordance with Section 33-3 of the Criminal Code
of 2012” 725 ILCS 5/103-8 (West 2014).
K 44

Similarly, in this case, the remedy for a violation of section 103-1 (b) is the remedy set forth

in section 103-8. Indeed, section 103-1 expressly provides this: “Any peace officer or employee
who knowingly or intentionally fails to comply with any provision of this Section, except
subsection (b-5) of this Section, is guilty of official misconduct as provided in Section 103-8;
provided however, that nothing contained in this Section shall preclude prosecution of a peace
officer or employee under another section of this Code.” 725 ILCS 5/103-l(h) (West 2014)).
Thus, the reasoning of McGuire applies here; the remedy for a violation of section 103-1(b) is
provided for by statute and is not suppression.
H 45

Defendant attempts to characterize the portion of McGuire upon which we rely here as

dicta. as it was an alternative basis for the supreme court’s resolution of that case (the court had
first held that notice was not required to be posted where defendant was being held (a hospital)
{McGuire, 35 Ill. 2d at 225)). However, it is well established that “an expression of opinion upon

-16-

2020 IL App (2d) 170750-U

a point in a case argued by counsel and deliberately passed upon by the court, though not essential
to the disposition of the cause, if dictum, is a judicial dictumCates v. Cates, 156 Ill. 2d 76, 80
(1993). The supreme court added, “[JJudicial dictum is entitled to much weight.” As an analysis
of the statutory language at issue in that case, we find this passage of McGuire, if dicta at all. is
clearly of the judicial sort.

Moreover, the reasoning is persuasive, particularly in light of

defendant’s inability to identify any authority holding that the remedy for a violation of section
103-l(b) is suppression. Defendant does cite some foreign authority construing statutes of other
states; however, in light of our supreme court’s analysis of article 103 in McGuire, there is no need
to resort to foreign cases. As such, this argument must fail.
1146
47

2. Invocation of Right to Counsel
Defendant next contends that he invoked his right to counsel in the parking garage, during

the trip to the Bloomingdale police station, and at the police station as well. Defendant correctly
points out that when a suspect invokes his right to counsel, all questioning must stop. People v.
Winsett, 153 III. 2d 335, 349 (1992) (citing Miranda, 384 U.S. at 474). The problem for defendant
here is that the trial court found incredible defendant’s claim that he invoked his right to counsel
prior to essentially the end of the interrogation.
H 48

As noted, we apply the manifest-weight standard in reviewing a trial court’s finding

regarding an issue of historical fact. Lee, 214 Ill. 2d at 483. We owe great deference to the trial
court’s determinations regarding issues of fact and credibility. People v. McDonough, 239 Ill. 2d
260, 266 (2010). This is because the trial court, having observed the testimony of witnesses
firsthand, is in a better position to assess and weigh the evidence. People v. Sorenson, 196 Ill. 2d
425,431 (2001).
49

l-Iere, on this issue, the trial court found as follows:

-17-

\

\

2020 IL App (2d) 170750-U

“The final question centers around whether the defendant made a request for an
attorney prior to being Mirandized or after but prior to indicating he no longer wished to
speak with the police. He testified that he requested an attorney while at the scene and
during transport to the police station. He testified he asked for his cellphone to make such
a call but that this was denied to him. The court finds this testimony is not credible for
several reasons. First, as shown later in the video, defendant had a cellphone on his person
throughout the interrogation, second when the taped interview began he made no reference
to having asked for an attorney nor made a request for an attorney while the interview was
being taped.”
Initially, we note that the trial court’s articulated reasons for rejecting defendant’s testimony are
reasonable. In addition, we note that Spradling, Hill, and Gibler testified that defendant did not
ask for an attorney. Thus, there was a direct conflict in the testimony. Resolving such conflicts is
primarily a matter for the trier of fact—here, the trial court. People v. Frazier, 248 Ill. App. 3d 6,
13 (1993). Defendant makes a general attack on the officers’ credibility and asserts that asking
for an attorney under the circumstances present would have been “common sense”; however, he
has provided us with no persuasive reason why the trial court was required to accept his testimony
over that of three police officers. As such, the factual predicate for defendant’s argument—that
he requested counsel prior to the interrogation—is lacking, and this argument must fail.

1150
1151

3. Miranda
Defendant next criticizes the manner in which the Miranda warnings were delivered to

him. Defendant contends that the police presented the Miranda warnings to him in a way that was
designed to minimize their importance. Defendant points out that Hill told defendant that lie would
read him the warnings “real quick.” He stated that warnings were “normal,

-18-

standard,” and “that

i

2020 IL App (2d) 170750-U

this was a normal process.” Hill acknowledged cutting off defendant at times. The trial court
agreed with defendant’s characterization of the officer’s reading of the warnings:
“It is clear that Officer Hill’s recitation of the warnings was done in a manner which
downplayed the importance of the warnings. His comments, such as it just means that I read
them to you, its normal procedure which he does with a lot of people, are all comments in the
courts mind made in an attempt to minimize the import of the warnings.”
The trial court went on to find that despite the manner in which they were presented, the warnings
“did convey to defendant what his rights were.”
| 52

We are unaware of any rule of law that holds that the police are required to do anything

more than present a defendant with the necessary information, and defendant cites nothing to this
effect.

He does cite Moran v. Burbine, 475 U.S. 412 (1986); however, that case actually

undermines his position. As defendant notes, in Moran, the Supreme Court suggested that conduct
more egregious than falsely telling an attorney that his client faced no imminent questioning would
rise to the level of a due process violation. Id. at 432. Defendant’s implication is that the conduct
in this case would exceed such a threshold. However, conveying the Miranda warnings in a iessthan-enthusiastic manner does not appear to us to reach the level of deliberately lying to a suspect’s
attorney. Moreover, a rule based on the tone of the warnings or the relative enthusiasm with which
they were delivered would be incredibly difficult to apply.
H 53

In short, we find this argument wholly unpersuasive. The trial court’s decision that the

warnings as given by the police were adequate is not contrary to the manifest weight of the
evidence.

1154

4. Waiver

-19-

I

2020 IL App (2d) 170750-U

11 55

Defendant also contends that his waiver of his Miranda rights was not knowing or

voluntary.

Of course, any waiver of a constitutional right must be performed knowingly,

voluntarily, and intelligently. People v. Bernasco, 138 Ill. 2d 349, 357 (1990). The supreme court
clarified that a suspect need not “understand far-reaching legal and strategic effects of waiving
one’s rights, or to appreciate how widely or deeply an interrogation may probe, or to withstand the
influence of stress or fancy; but to waive rights intelligently and knowingly, one must at least
understand basically what those rights encompass and minimally what their waiver will entail.”
Id. at 363. Further, u[i]n determining whether a defendant knowingly and intelligently waived his
or her Miranda rights, a court considers the totality of the circumstances, including tire
characteristics of the defendant and the details of the interrogation, without any one factor or
circumstance controlling.” People v. Mahaffey, 165 Ill. 2d 445, 462 (1995). Whether a waiver is
knowing and voluntary presents a question of fact subject to review using the manifest-weight
standard. People v. Soto, 2017 IL App (1st) 140893, ^ 69.
H 56

The trial court determined that defendant’s waiver was valid. It first noted that, during the

interrogation, “defendant asked to differentiate between understanding the rights as opposed to
waiving them.” Hill then told defendant that “it just meant that he had read the rights to him.”
Defendant persisted, and Spradling “explained that a waiver means defendant is willing to talk
with the police at that time and understands his rights” and that defendant could stop talking at any
time. Defendant then signed the waiver of rights form. The trial court further observed, “Here the
admonitions given, although not given in a manner the court would prefer to see done, did convey
to the defendant what his rights were.” Moreover, defendant was college educated, and, we note,
had successfully run several businesses for years. In other words, there were indicia that defendant
was intelligent. Additionally, defendant bad been previously arrested, had his rights explained to

-20-

2020 IL App (2d) 170750-U

them, and had invoked his right to silence. Finally, the trial court found, “The understanding of
his rights is further supported by the fact that at some point in the interview he exercised his right
to be silent.” The trial court’s findings here are reasonable and based on evidence in the record.
K 57

Defendant relies on People v. Redmon, 127 Ill. App. 3d 342 (1984), in arguing that he did

not understand his rights. In Redmon, the defendant expressly stated that he did not understand
his rights, which defendant points to as a similarity with this case. Defendant also asserts that
Redmon is similar because he did not have “significant experience with the criminal justice
system.” We do not believe defendant is fairly characterizing his own experience with the justice
system. While there was only one other incident, it was extremely relevant—defendant was
Mirandized and invoked his right to silence. More importantly, the defendant in Redmon was 17
years’ old at the time of his arrest and a psychologist opined that he had an IQ of 70 or 71 “and
fell into the category of borderline mental deficiency.” Id. at 346. Indeed, much of the discussion
in Redmon focused on the defendant’s mental capacity. Id. at 347-350. Here, defendant is a
college educated businessman and over 50 years’ old. Redmon is easily distinguishable.
U 58

In sum, the trial court could reasonably determine that defendant’s waiver was knowing,

intelligent, and voluntary. The police conveyed the warnings to defendant, a college-educated
businessman. Defendant had been arrested and invoked his right to silence previously. Further,
defendant invoked his rights and terminated the interrogation in this case.

Under such

circumstances, we cannot find the trial court’s decision is contrary to the manifest weight of the
evidence.
1159
11 60

B. MOTION TO SUPPRESS RECORDINGS
In a series of motions, defendant asked the trial court to suppress the recordings of the

overhears of the telephone conversation between him and Schweigert. Defendant identifies three

-21-

2020 IL App (2d) 170750-U

alleged violations based on the relevant statutes governing overhears: (1) the state did not disclose
the recordings in a timely fashion; (2) that the recordings were not returned to the judge that issued
the order authorizing the overhear; and (3) that the recordings were not returned to a judge and
sealed immediately after the order expired (we will address the last two in a single section of this
disposition, as they raise related issues). As noted above, a trial court’s decision on a motion to
suppress evidence is reviewed using a mixed standard. Lee, 214 Ill. 2d at 483. Findings of
historical fact are reviewed using the manifest-weight standard, and “we review de novo the
ullimate question of whether the evidence should be suppressed.” Lee, 214 III. 2d at 483-84. A
finding is against to the manifest weight of the evidence where an opposite conclusion is clearly
evident. Faith B., 359 Ill. App. 3d at 573. We decline the State’s invitation to apply the abuse-ofdiscretion standard based on defendant’s characterizations of its motions as one for sanctions or
one based on lack of foundation as defendant’s motions are, in fact, suppression motions. We will
first address the substance of defendant’s three asserted bases for suppression; we will then turn to
the question of remedy.
H61
K 62

1. Timely Notice
We first turn to defendant’s argument that the State did not give timely notice before using

the recordings in a proceeding. Section 108A-8(c) of the Code (725 ILCS 5/108A-8(c) (West
2014)) provides as follows:
“The contents of any recorded conversation or evidence derived therefrom shall not be
received in evidence or otherwise disclosed in any trial, hearing, or other judicial or
administrative proceeding unless each party not less than 10 days before such a proceeding
has been furnished with a copy of the court order and accompanying application under
which the recording was authorized or approved and has had an opportunity to examine

-22-

2020 IL App (2d) 170750-U

the portion of the tapes to be introduced or relied upon. Such 10-day period may be waived
by the judge if he finds that it was not possible to furnish the party with such information
within the stated period and that the party will not be materially prejudiced by the delay in
receiving such information/’
Defendant complains that the State used the recordings in a bond hearing on January 16, 2015 and
before the grand jury on January 20, 2015, but did not formally disclose the that “electronic
surveillance was used in this case” until January 21, 2015 (notice was given well before the trial).
The State counters that the recordings were made only a few days before the bond hearing, so 10day notice was not possible. Moreover, the State continues, since the statute allows waiver of this
requirement if notice was not possible, a request for waiver would have been granted.
H 63

In his argument, defendant does not identify precisely what portion of the bond hearing he

is relying on in support of this argument (needlessly complicating our review). However, our
review of the transcript leads us to conclude that this is the pertinent material:
“In addition, Judge, the evidence would establish that this friend traveled to the
state of Illinois, agreed to a judicial overhear; that during the course of telephone
conversations and text conversations with Mr. Keller, specifically during telephone
conversations Mr. Keller made numerous admissions admitting that he had, in fact, killed
Nate Fox, reiterated that he had he had put the gun back in its place and [it] would never
be found again.”
Defendant did not object based on lack of notice or for any other reason (it was not until over two
years later that defendant raised the issue in the motion). Had defendant objected, the State could
have sought a ruling on waiver, which likely would have been successful since the recordings were
created less than ten days prior to the bond hearing (the recording was also created less than 10

-23-

2020 IL App (2d) 170750-U

days before the grand jury proceedings). Indeed, one could surmise that the reason that defendant
did not object was that the waiver exception so clearly applied.

By failing to interpose a

contemporaneous objection, defendant has forfeited this issue. People v. Gone, 375 III. App. 3d
386, 393-94 (2007).
64

Moreover, defendant’s claims of prejudice are highly speculative. Defendant first contends

that members of the press were present at the bond hearing.

By referencing the recording,

according to defendant, the State poisoned the jury pool. Additionally, defendant asserts that
‘‘every witness that the defense talked to already knew about the overhear” and “[mjany of the
defense’s potential witnesses refused to talk to them after exposure to the overhear, having already
concluded [djefendant was guilty.” As for the first point, nothing in the record indicates the
amount and depth of press coverage to which this case was subjected. Without more, we certainly
could not say that the trial court’s finding that the publicity in this case was not as significant as
many cases for which the trial court was able to pick a jury is against the manifest weight of the
evidence. As for the second, nothing establishes why witnesses were refusing to speak with
defense counsel.

In fact, defendant cites nothing but the argument of defense counsel to

substantiate this theoiy. Prejudice cannot be established by mere speculation. People v. Torres,
245 Ill. App. 3d 297, 301 (1993); People v. Walker, 24 Ill. App. 3d 421,423 (1974) (“An assertion
of prejudice does not establish such as a fact, but is speculative in the absence of a showing of
actual prejudice.”). Moreover, it is not even known whether any of the witnesses that purportedly
refused to speak to defense counsel would have had anything to say that would have bcnefitted
defendant at trial. See People v. Meeks, 27 Ill. App. 3d 144, 148 (1975) (“[T]he record before this
court does not contain a whisper of a suggestion that no matter how extensively, how ingeniously
or how vigorously the complaining witness might have been cross-examined, her testimony would

-24-

2020 IL App (2d) 170750-U

have given petitioner any comfort. It would be impossible for petitioner to establish or even allege
that her testimony could have been helpful to him because whether it would have changed or
shifted or whether how she would have behaved under cross-examination would have affected the
decision to plead guilty is completely speculative.”).
H <55

We find this argument unpersuasive as well. Further, to the extent defendant argues that

the statements should have been suppressed as they were otherwise “obtained in violation of
Illinois law,” People v. Nieves, 92 Ill. 2d 452 (1982), as we explain below, would control on the
question of admissibility.
H66
1f 67

2. Other Statutory Requirements
As defendant’s remaining arguments pertain to the same statutory subsection, we will

address them together. Defendant also contends that the State failed to comply with section 108A7(b) of the Act (725 ILCS 5/108A-7(b) (West 2014)). That section provides, in pertinent part, as
follows:
“Immediately after the expiration of the period of the order or extension or, where the
recording was made in an emergency situation as defined in Section 108A-6, at the time of
the request for approval subsequent to the emergency, all such recordings shall be made
available to the judge issuing the order or hearing the application for approval of an
emergency application.”
Defendant points out that the recordings were returned to a judge other than the one who issued
the overhear order. Further, defendant asserts that the only indicia of when the recordings were
returned to the judge is the file stamp date on the judge’s order sealing them, which is April 30,
2015, 77 days after the overhear order expired. In his motion raising these issues, defendant does
not allege that the recordings were altered in any way.

-25-

2020 IL App (2d) 170750-U

1 68

Section 108A-9 (725 1LCS 5/108A-9 (West 2014)) allows an “aggrieved person” lo move

to suppress recorded conversations on multiple grounds, specifically: (1) that the conversation was
unlawfully overheard; (2) that the order authorizing the overhear was improperly granted: or (3)
that the State failed to comply with the authorizing order.
K 69

The State does not seriously dispute that it did not comply with the literal terms of the

statute; instead, it argues that the violations that occurred were teclmical in nature and not a basis
to suppress the recordings. To this end, it relies on Nieves, 92 Ill. 2d 452, in which our supreme
court considered whether the State’s failure to comply with section 108A-7(b) of the Code (Ill.
Rev. Stat. 1977, ch. 38, par 108A-7(b) (now codified as amended at (725 ILCS 5/108A-7 (West
2014))) warranted suppression of telephone conversations recorded through the use of an
eavesdropping device. The defendant moved to suppress as the recordings were not returned to
the issuing judge until 16 days after the order expired, allegedly violating the immediacy
requirement of section 108A-7(b). Id. at 455. The State countered that its failure to return the
recordings for 16 days was a mere teclmical violation that did not warrant suppression. Id at 456.
170

The supreme court noted that this was an issue of first impression in Illinois; however,

federal courts had construed similar language in federal statutes, which included an immediacy
requirement. Id. at 457. It added that “the wording in the Federal and Illinois statute is virtually
identical in all pertinent respects.” Id. at 458. The Nieves court observed that the United States
Supreme Court, in United States v. Chavez, 416 U.S. 562,574-75 (1974), held that not every failure
to comply with the federal statute required suppression. In United States v. Giordano, 416 U.S.
505, 527 (1974), the Court explained, “[W]e think Congress intended to require suppression where
there is failure to satisfy any of those statutory requirements that directly and substantially
implement the congressional intention to limit the use of intercept procedures to those situations

-26-

2020 IL App (2d) 170750-U

clearly calling for the employment of this extraordinary investigative device/' Subsequently, in
United States v. Chun, 503 F.2d 533, 541-42 (9th Cir. 1974), the Ninth Circuit Court of Appeals
distilled the following test from Chavez and Giordano to ascertain when failure to comply with
the federal statute mandated suppression: “(1) [whether] the particular safeguard is a central or
functional safeguard in the congressional scheme to prevent abuses, (2) [whether] the purpose that
the particular procedure was designed to accomplish has been satisfied in spite of the error, and
(3) [whether] the statutory requirement was deliberately ignored and, if so, whether there was any
tactical advantage to be gained by the government.5' Nieves, 92 Ill. 2d at 458-59.
H 71

The Nieves court further observed, “With respect to the above criteria, it has been

consistently held that the immediate-sealing requirement is a primary safeguard in the legislative
scheme (factor 1) and that the function of the post-interception procedural requirement is to
preserve the integrity of the intercepted conversations and to prevent any tampering or editing of
the tapes (factor 2).” Id. at 459. It added, “The inquiry under factor (2) of the test thus becomes
whether that purpose has been fulfilled despite failure to adhere to the immediacy requirement.”
Id. The Nieves court also noted the Seventh Circuit Court of Appeal’s holding in United States v.
Angelini, 565 F.2d 469,473 (7th Cir. 1977), that “the congressional purpose underlying the sealing
requirement was satisfied inasmuch as there was no substantial question raised about the integrity
of the tapes.” Nieves, 92 III. 2d at 460.
1) 72

Our supreme court adopted the federal test articulated in Chun to determine when

suppression is warranted for violations of section 108A-7(b) and related provisions. Id. at 462. It
further explained, “Where the issue is immediacy, we believe that if a defendant challenges the
integrity and presents some evidence to support the challenge, the burden should shift to Ihe State,
similarly to when suppression of a confession is sought, and the State must show that ihe tapes

-27-

2020 IL App (2d) 170750-U

have not been altered.5 Id. Further, '‘the absence of any challenge to the integrity of the tapes,
combined with the lack of any indication that tampering has occurred, goes a long way toward
fulfilling the legislative objective.” Id. The court then applied the test and determined that the
recordings at issue in Nieves were admissible. Id. at 462-63.
173

Applying the test in this case, the trial court first observed that the purpose of our statute

was to “allow for, in this case, a consensual overhear”—that is, consensual “at least by one of the
parties.” The “immediate sealing” requirement serves to “prevent any attempt or any alteration or
modification of what is actually on the overhear,” and the “timeframes” serve the same purpose.
The trial court then noted that the recordings had been turned over to the defense for at least a year
prior to the hearing on the motion to suppress the recordings and that there was “no allegation in
any of the pleadings that they [had] been altered or modified in any way.” Defendant was making
no claim “that they are not what occurred.” The trial court found that the fact that a different judge
issued the order than the judge it was returned to was not of “any great consequence”; therefore,
this was not a basis for suppression (we note that the trial court’s analysis on this point implicates
the first factor set forth in C/im/7—whether the safeguard is central to tire legislative scheme to
prevent abuses). The trial court concluded that since the recordings authenticity was not at issue,
the defendant’s motion was denied.
74

Issues of statutory construction are subject to de novo review, of course (.People v. Legoo,

2019 IL App (3d) 160667, K 9); however, we find the trial court’s analysis persuasive. Applying
the three-factor test adopted by our supreme court in Nieves, 92 Ill. 2d at 459, we initially note that
the provision stating the recording should be returned to the issuing judge does not appear central
to the legislative scheme, while the immediacy and sealing requirements do (see People v.
Cunningham, 2012 IL App (3d) 100013, U 24). Moreover, as defendant does not allege that the

-28-

2020 IL App (2d) 170750-U

recording has been altered, the purpose the statute is designed to serve (factor 2) has been satisfied.
See Nieves, 92 Ill. 2d at 462-63.

Indeed, Schweigert testified that the recordings of the

conversations that took place during the overhear were accurate. Finally, regarding the third factor,
we are unable to discern any tactical advantage the State gained by returning the recordings to a
different judge than the one that issued the order or by delaying in doing so. Moreover, defendant
identifies nothing along these lines. Thus, we hold that, under Nieves, the trial court did not err in
refusing to suppress the recordings at issue in this case.
1f 75

Defendant asserts that Nieves has been preempted by federal law, specifically, by the

United States Supreme Court’s decision in United States v. Ojeda Rios, 495 U.S. 257 (1990). It is
true that Congress has “preempted the regulatory field of electronic surveillance, and therefore
Illinois may not enact standards that are less stringent than the requirements set by the federal
statute.” People v. Allard, 2018 IL App (2d) 160927, % 25.
K 76

In Ojeda Rios, the defendant sought suppression of surveillance recordings based on the

police’s failure to have them sealed in a timely manner. Section 2518(8)(a) of Title III of the
Omnibus Crime Control and Safe Streets Act of 1968 (Act) (18 U.S.C.A. § 2518(8)(a) (2000))
provides, in pertinent part: “The presence of the seal provided for by this subsection, or a
satisfactory explanation for the absence thereof, shall be a prerequisite for the use or disclosure of
the contents of any wire, oral, or electronic communication or evidence derived therefrom under
subsection(3) of section 2517.” Based on this language, the Supreme Court held that before a
delay in sealing a recording could be excused, the government was required to proffer a satisfactory
explanation as to why the delay occurred and why it is excusable. Ojeda Rios, 495 U.S. at 265.
Defendant notes that section 108A-7(b) contains language that is substantially similar to the
language construed in Ojeda Rios. See 725 1LCS 5/108A-7(b) (West 2014) (“The presence of the

-29-

2020 IL App (2d) 170750-U

seal provided for in this Section or a satisfactory explanation for the absence thereof shall be a
prerequisite for the use or disclosure of the contents of the recordings or any evidence derived
therefrom.”). Defendant reasons that since the language of both statutes is so similar, and because
federal law preempts state law generally in the field, the Nieves test for admissibility is no longer
good law and Illinois is required to adopt and apply the more stringent satisfactory-explanation
test.
T| 77

The State counters that the federal law upon which defendant relies concerns

nonconsensual wiretaps and does not apply to overhears where one party has consented. It points
to section 2511 of the Act, which states: “It shall not be unlawful under this chapter for a person
acting under color of law to intercept a wire, oral, or electronic communication, where such person
is a party to the communication or one of the parties to the communication has given prior consent
to such interception.” 18 U.S.C.A. § 2511(2)(c) (2000). Indeed, our supreme court noted in
Coleman that Title III of the Act “prohibits recording conversations when neither party consents,”
but provides an exception where one party has consented to the overhear. Coleman, 227 Ill. 2d at
434.
H 78

We agree with the State. It is difficult to see how federal law that is not applicable to the

conduct at issue before a court could preempt state law that pertains to such conduct. Defendant
attempts to establish such a link by pointing to the fact that state and federal statutes at issue here
(18 U.S.C.A. § 2518(8)(a) (2000); 725 ILCS 5/108A-7(b) (West 2014)) contain substantially
similar language. If defendant were simply asking us to construe section l08A-7(b) and pointed
to section 2518(8)(a) as persuasive authority, we could certainly consider it in this manner.
However, defendant is asking us to hold that Nieves, a case issued by our supreme court (a court
we lack the authority to overrule (Bhunenlhal v. Brewer, 2016 IL 1 18781, U 28)). is no longer good

-30-

2020 IL App (2d) 170750-U

law in light of subsequent developments in federal law. We could only do so on the clearest,
dispositive authority indicating federal action has abrogated Nieves—not, as defendant suggests, a
case and statute that do not even address the conduct at issue here.
If 79

In a related context, our supreme court has held:
We are bound to follow the United States Supreme Court's interpretation of the
Constitution of the United States. [Citations.] But we are not bound to extend the decisions
of the Court to arenas which it did not purport to address, which indeed it specifically
disavowed addressing, in order to find unconstitutional a law of this state. This is
especially true where, as here, to do so would require us to overrule settled law in this
state.”

This logic is pertinent here. Defendant asks that we extend Ojeda Rios beyond its facts and find
that Nieves has been abrogated. We are compelled to decline defendant’s request.

1180
If 81

C. HARMLESS ERROR
Finally, the State contends that both alleged errors were harmless because the evidence

against defendant was overwhelming. The erroneous admission of evidence can amount to
harmless error where the other evidence against a defendant is overwhelming. People v. Sandifer,
2017 IL App (1st) 142740, ^ 71. Such is the case here. At trial, the following evidence was
adduced.
11 82

Carlie Fraley, the victim’s paramour, testified that she heard two gunshots about 30seconds

after the victim arrived home and opened the garage door. She ran to the garage and discovered
he had been shot. On the day of the shooting, a neighbor who lived in a townhome adjacent to the
victim noted an outdoor light on his garage was not working. He discovered it was not screwed in
all the way, so he tightened the bulb. Later, he heard two loud noises and a car drive off. A number

-31-

2020 IL App (2d) 170750-U

ot police cars arrived, and he went outside. He then noted that the light was not working and
discovered that it was not screwed in all the way again. He never had a problem with the light not
working after this date. Another neighbor testified that he heard the gunshots but did not hear any
arguing preceding them. He observed a dark colored car leaving the scene.
1f 83

Dr. McElligott testified that she performed an autopsy on the victim. She observed two

gunshot wounds. One entered on the front ofthe left shoulder and traveled downward. The second
entered the right forearm and traveled upward. She found no evidence of close-range firing,
meaning within 24 inches.
1 84

Schweigert testified that he had been friends with defendant since college. On January 9,

2015, he and defendant had dinner at Schweigert’s house.

At one point, defendant asked

Schweigert if he had ever been so mad at someone that he wanted to kill him. Schweigert answered
no, and defendant said, “I was so mad at somebody that I killed him.” Defendant explained that
“the woman that he was seeing he felt was seeing someone behind his back.” He said the woman’s
name was “Katie.” Defendant stated that he and Katie had not been intimate. Defendant agreed
with Schweigert’s characterization of the relationship as an “emotional affair.”

Defendant

indicated that she had feelings for him too. Defendant told Schweigert that “he felt strongly that
she had actually gone behind his back and had sexual intercourse with another man.” Defendant
identified the man as Nate Fox, a former basketball player.
1 85

Defendant told Schweigert to use Google to get more information about the killing.

Defendant did not want to use his own phone to perform the search. An article appeared, and
defendant pointed to it and said, “I did that.” Defendant was not emotional when he did so.
Schweigert asked defendant why he shot Fox, and defendant “said that Nate was messing with
something, or someone, that he shouldn’t have been messing with.” Schweigert inquired as to

-32-

2020 ILApp (2d) 170750-U

whether defendant had confronted Katie. Defendant stated that he had, and she always denied it.
However, defendant “suggested that his gut feeling has always been historically 100 percent
accurate, and he still had the gut feeling that she was having sex behind his back and with Nate/’
Defendant said, “he wanted to get rid of the problem” and the problem was Nate Fox.
H 86

Defendant described to Schweigert how he committed the crime, including that he rented

a car and followed Fox on several occasions and that he believed Fox was most vulnerable when
he was exiting his car. On the night of the killing, defendant hid in some shrubbery. When Fox
pulled into his driveway, defendant ran to where Fox would get out of his car and shot him three
times. Defendant told Schweigert that he regretted not going back for a kill shot. Defendant was
concerned that the car he rented had a GPS unit and would document Ills travels that evening.
Defendant was also concerned that a red-light camera may have taken a picture of him. Defendant
stated that he still had the gun he had used, but that “it would be put back where it belonged, or
back in its place.”
H 87

The next day, Schweigert drove defendant to the airport. On the way to the airport,

defendant asked Schweigert if he had a gun. He also asked how far Schweigert would be able to
drive if defendant needed his help. Defendant also stated he would not kill himself or go to prison
and that “he was going to stay on the road on business and just not go back to Chicago for quite a
while.”
H 88

Defendant’s nephew, Scott Schoenherr, testified that he and his ex-wife were staying at his

parent’s home in December 2014. They stayed in the.basement. Defendant frequently visited and
spent the night. Scott owned three guns, including a Smith & Wesson 9 mm. The 9 mm was
stored in a quick-release safe under his bed. Scott was away on a business trip from December 7
to December 16, 2014 (defendant visited on December 13, 2014). On December 26, 2014, Scott

33

2020 IL App (2d) 170750-U

discovered that the 9 mm was missing. On January 10, 2015, defendant stayed at the house. Scott
was out that night and his room was unlocked. On January 15, Bloomingdale police came to the
house and asked Scott about his guns. Scott told them his 9 mm was missing. The officers and
Scott went to look at the safe. When he opened it, the 9 mm was inside.
11 89

Debra Schoenherr testified that defendant stayed at their house on December 13, 2014,

while Scott was away on business. Defendant slept in the basement. Debra next saw defendant
when he stayed at her house on January 10, 2015.
H 90

Jack Feinstein, the director of product management for BrickHouse Security, testified that

defendant purchased a GPS with a magnetic mounting case on November 10, 2014.
H 91

Kathryn Cole (“Katie”) testified that she met defendant in 2010. Their daughters played

soccer together. Defendant called her “Katie.” By 2013, they were texting or emailing daily. In
May 2013, Nate Fox began working at her office. She told defendant that he was a former
basketball player. After about a month, he was terminated. Cole never saw Fox again. She told
defendant that Fox had been fired.
1192

In the summer of 2013, Cole felt that her communications with defendant were "getting

a little out of control.” She told defendant that they “needed to let it die down” and that she “needed
some space.” In October 2013, in a text message, defendant accused Cole of having a relationship
with Fox. She denied this via text message. She was angry, and she called defendant as well. She
was angry because “it was completely false, and I thought he was a friend of mine, and I didn’t
understand why he was doing this.” Defendant then threatened to come to Cole’s house if she
refused to come and speak with him. She met defendant in a nearby church parking lot.
11 93

Also in the fall of 2013, defendant accused Cole of going to Fox’s house. He claimed he

saw her there. She had never been to Fox’s house. She “vehemently denied it” to defendant. She

-34-

2020 IL App (2d) 170750-U

asked defendant to take her to where he saw her. Cole drove and defendant directed her, without
using a GPS or other sort of device to locate it. Defendant was able to find it by memory. They
arrived at a building that defendant pointed out, and Cole told him she had never been there. The
subject of Cole having an affair with Fox came up on multiple occasions. Defendant accused her
of going home with Fox after a party and of going to a hotel with him. Cole testified that none of
the allegations were true. She was angiy about the accusations and “cut off the relationship and
communication” with defendant in November 2013 through January 2014. Despite the fact that
Cole asked defendant to stop communicating with her, he continued to send messages on a near
daily basis.
K 94

In 2014, she noted defendant following her on three occasions.

She described their

relationship in winter and spring as “tumultuous.” They would start speaking, he would make an
accusation, and she would cut off contact. In February 2014, Cole went to a company party. She
drank a lot and became veiy intoxicated. She texted with defendant and flirted. Defendant asked
if he could pick her up, and she agreed. He took her to his office, which was nearby. Cole felt
sick and was “sick for hours.” However, there was some “very minimal” physical contact. She
testified that she never had sexual intercourse with defendant. Cole’s husband found out that
something was going on, and she explained it to him. Defendant met with Cole’s husband (Dan),
and they talked.
H 95

Cole testified that Facebook Messenger has a function that allows you to see where the

person you are speaking with is located. Defendant would get “very upset” if Cole turned that
function off. In May 2014, defendant again accused Cole of having an affair with Fox and sent
her a text, which stated: “Total shit storm. You win. Congrats. Who did you think you were
deceiving? No pride. No integrity. These walls will fall.” About 9 days later, she sent defendant

-35-

**

2020 IL App (2d) 170750-U

a text stating, Please do not ever contact me or my husband again. " Defendant replied that maybe
they should talk at the bowling alley, referring to a party she was having at a bowling alley for her
daughter later that day. Defendant also texted: '‘You need to talk to me before this spins out of
control. Tick tock. Time not an ally here.” Nevertheless, they continued to communicate in June,
including messages that were sexually provocative in nature, which continued. Defendant would
send Cole links to pornography and explicit pictures of himself. On November 10, 2014, Cole
declined to meet defendant for lunch because she had other things to do. Defendant seat her a
message stating:
“You have a standing offer. Other plans maybe? You encouraging me to doubt you? You
encouraging me to doubt you question mark, [sic]

* * V

Let’s talk here, Kate. Care to

share why you can’t? What’s cooking today.”
Subsequently, he stated:
“I am going to look deeply into your day. I am going to look for your untrustworthy ways.
Does not feel right. This should be the most trust you have seen. No problem. We get
you straightened out. You poor thing. I feel sorry for you, but I prefer to do the right thing,
so I will.
H 96

Detective David Spradling, a detective with the Bloomingdale police department, testified

that he obtained the records from the GPS device that defendant had purchased. They showed that
the device had been near, among other places, defendant’s home and office, Cole’s home, and the
victim’s home at various points. It pinged in Indianapolis and Columbus at times when charges
were made on one of defendant’s credit cards in those areas. Data further indicated that it was
attached to Cole’s vehicle,when she left the state during the Thanksgiving holiday. On the day of
the killing, it first transmitted horn defendant’s home and then his office. At about 1 i a.m., it

-36-

*#

2020 IL App (2d) 170750-U

pinged from near the victim's home. At about noon that day, the device was near the Weber Grill
in Lombard, where defendant’s credit card showed a purchase. Detective Thomas Brown testified
that a forensic examination of defendant’s computer revealed Google searches for “Nale Fox,”
“Du Page Major Crimes Task Force,” and “Nate Fox reward.” Other evidence indicated that
defendant had a contact in his telephone for Nate Fox and that there was a Google Map entry for
the victim’s home. There was also evidence that defendant purchased handgun ammunition.
H 97

Clearly, the evidence of defendant’s guilt was overwhelming. Given the strength of this

evidence, the errors defendant complains of-

wen if his complaints were well founded—are

harmless. People v. Scmdifer, 2017 IL App (1st) 142740, H 71. Moreover, as for the overhear
recordings, Schweigert could have testified to the contents of those conversations had the
recordings themselves been excluded. People v. Walker, 291 Ill. App. 3d 597,604 (1997). Hence,
even if defendant’s claims of error had merit, we would nevertheless be compelled to affirm his
conviction.
198
H 99

IV. CONCLUSION
In light of the foregoing, the judgment of the circuit court of Du Page County is affirmed.

H 100 Affinned.
1101 PRESIDING JUSTICE BIRKETT, specially concurring:
K 102 I agree with my colleagues in upholding the trial court’s order denying defendant’s motion
to suppress the eavesdropping recordings. I write separately to note that the Illinois legislature
amended the eavesdropping statute to allow one party consent eavesdropping during the
investigation of a qualified offense, without a court order, so long as the State’s Attorney has given
his or her “written approval” and the recordings will be made within “a reasonable period of lime

-37-

2020 IL App (2d) 170750-U

but in no event longer than 24 consecutive hours.” 720 ILCS 5/14-3(q) (eff. Jan. 1, 2015). First
degree murder is a “qualified offense.” 725 ILCS 5/l4-3(q)(7)(B).
IT f 03 In this case. DuPage County State’s Attorney Berlin authorized the use of an eavesdropping
device on January 13, 2015. The recordings were made on January 14, 2015. The newly enacted
exemptions in section 14-3 were in effect when the recordings were made and at the time of trial.
A court order under Article 108A may not have even been necessary given the speed wiih which
the police completed their investigation after receiving the State’s Attorney’s authorization.

-38-

i 'FT I!

; «a\ w JA? •
ULY 1,1877./
,•

State of Illinois

Appellate Court
Clerk of the Court
(847) 695-3750

Second District
55 Symphony Way
Elgin, IL 60120

TDD
(847)695-0092

December 3, 2019
Jeffrey W Keller
Reg. No. Y24060
Menard Correctional Center
P.O.Box 1000
Menard, IL 62259
RE: People v. Keller, Jeffrey W.
General No.: 2-17-0750
County: DuPage County
Trial Court No: 15CF88

The court has this day, December 03, 2019, entered the following order in the above entitled
case:
The request by appellant, Jeffrey W. Keller, to file his supplemental pro se brief, is denied. Mr.
Keller is represented by counsel who alone can file documents on his behalf.
Unopposed motion by appellant’s attorney for an extension of time to file the reply
brief. Motion is granted. Appellant’s reply brief is due December 11, 2019.

Robert J. Mangan
Clerk of the Appellate Court
cc:

Amy Margaret Watroba
Douglas Henry Johnson

c
l.\ SWCOMUlNDU

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035

Douglas Henry Johnson
Kathleen T. Zellner & Associates, P.C.
1901 Butterfield Road, Suite 650
Downers Grove IL 60515

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312)793-6185

September 30, 2020
In re:

People State of Illinois, respondent, v. Jeffrey Keller, petitioner.
Leave to appeal, Appellate Court, Second District.
126094

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 11/04/2020.

Very truly yours,

<2M>
Clerk of the Supreme Court

>

Ay?£fiJD/x

D

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721

CAROLYN TAFT GROSBOLL
Clerk of the Court

November 20, 2020

(217) 782-2035
TDD: (217) 524-8132

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20* Floor
Chicago, Illinois 60601-3103
(312) 793-1332
TDD: (312) 793-6185

Mr. Jeffrey W. Keller
Reg. No. Y-24060
Menard Correctional Center
P.O. Box 1000
Menard, IL 62259
In re: People State of Illinois
respondent, v. Jeffrey Keller, petitioner.
Case No. 126094
Dear Mr. Keller:
Mandate” and "Supplementa^Pro'se Brief'and'A6’ 2020'„of y°ur “Emergency Motion to Re
call
therefore, are being returned to you
^ Argument ’ which we are unable to file and,
The issuance of this Court's mandate
taken in your case; therefore the Illinois Supre^e^Courrnor|ong^^hasrfurisdtetion*lrrth!sarnattern
D.C., by filing a petition for writofcertiorarito that ® ^n!tegStates Supreme Court in Washington,
denial order to your petition for writ of certiorari The
0
a copy of this Court’s
Supreme Court, Supreme Court Bui,^&
States
Very truly yours,

Clerk of the Supreme Court
CTG.'lgr
Enclosure

r

4®%
SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721

CAROLYN TAFT GROSBOLL
Clerk of the Court

December 30, 2020

(217) 782-2035
TDD: (217) 524-8132

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185.

Jeffrey Keller
Reg. No. Y-24060
Menard Correctional Center
P.O. Box 1000
Menard, IL 62259
In re:

People v. Keller
126094

Dear Jeffrey Keller:
This office has received and filed as of December 30, 2020 the following in the
above entitled cause:
Emergency motion by Petitioner, pro se, to recall this Court's mandate.
Any future filings or correspondence filed in the Supreme Court must include the
Supreme Court case number on all documents.

Very truly yours*

To# QtsS
Clerk of the Supreme Court

cc:

Attorney General of Illinois - Criminal Division
Douglas Henry Johnson
State's Attorney DuPage County
State's Attorney's Appellate Prosecutor, Second District

Consider e-filing.... visit www.illinoiscourts.gov

£A/Z>/X F
SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
CAROLYN TAFT GROSBOLL
Clerk of the Court

January 21, 2021

(217) 782-2035
TDD: (217)524-8132

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

Jeffrey Keller
Reg. No. Y-24060
Menard Correctional Center
P.O. Box 1000
Menard, IL 62259
In re:

People v. Keller
126094

Today the following order was entered in the captioned case:
Emergency motion by Petitioner, pro se, to recall this Court's mandate.
Denied.
Order entered by the Court.

Very truly yours

dM
Clerk of the Supreme Court
cc:

Attorney General of Illinois - Criminal Division
Douglas Henry Johnson
State's Attorney DuPage County
State's Attorney's Appellate Prosecutor, Second District

G

im
SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721

CAROLYN TAFT GROSBOLL
Clerk of the Court

March 18, 2021

(217) 782-2035
TDD: (217) 524-8132

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312)793-6185

Jeffrey Keller
Reg. No. Y-24060
Menard Correctional Center
P.O. Box 1000
Menard, IL 62259
In re:

People v. Keller
126094

Today the following order was entered in the captioned case:
Motion by petitioner, pro se, for reconsideration of the denial of emergency
motior-io recall mandate. Denied.
Order entered by the Court.

Very truly yours

dM
Clerk of the Supreme Court
cc:

Attorney General of Illinois - Criminal Division
State's Attorney DuPage County
State's Attorney's Appellate Prosecutor, Second District

Additional material
from this filing is
available in the
Clerk's Office.

